<html>
<title> - NOMINATION OF DR. CARLA D. HAYDEN, TO BE LIBRARIAN OF CONGRESS</title>
<body><pre>[Senate Hearing 114-285]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-285

                   NOMINATION OF DR. CARLA D. HAYDEN,
                      TO BE LIBRARIAN OF CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                 COMMITTEE ON RULES AND ADMINISTRATION
                     CONGRESS OF THE UNITED STATES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 20, 2016

                               __________

    Printed for the use of the Committee on Rules and Administration
    
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
    
    

                           U.S. GOVERNMENT PUBLISHING OFFICE
20-359                            WASHINGTON : 2016                           
    
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a>  
   
    
    


                 COMMITTEE ON RULES AND ADMINISTRATION

                             SECOND SESSION

                     ROY BLUNT, Missouri, Chairman

LAMAR ALEXANDER, Tennessee           CHARLES E. SCHUMER, New York
MITCH McCONNELL, Kentucky            DIANNE FEINSTEIN, California
THAD COCHRAN, Mississippi            RICHARD J. DURBIN, Illinois
PAT ROBERTS, Kansas                  TOM UDALL, New Mexico
RICHARD SHELBY, Alabama              MARK R. WARNER, Virginia
TED CRUZ, Texas                      PATRICK J. LEAHY, Vermont
SHELLEY MOORE CAPITO, West Virginia  AMY KLOBUCHAR, Minnesota
JOHN BOOZMAN, Arkansas               ANGUS S. KING, JR., Maine
ROGER WICKER, Mississippi

                 Stacy McHatton McBride, Staff Director
                Kelly L. Fado, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hon. Barbara Mikulski, a U.S. Senator from the State of Maryland.     2
Hon. Ben Cardin, a U.S. Senator from the State of Maryland.......     3
Hon. Paul Sarbanes, a Former U.S. Senator from the State of 
  Maryland.......................................................     5
Hon. Charles E. Schumer, a U.S. Senator from the State of New 
  York...........................................................     7

                             Testimony of:

Dr. Carla D. Hayden, Nominee to be Librarian of Congress.........     8

                         Prepared Statement of:

Hon. Patrick Leahy, a U.S. Senator from the State of Vermont.....    24
Dr. Carla D. Hayden, Nominee to be Librarian of Congress.........    26

                  Materials Submitted for the Record:

Statement Submitted by American Association of Law Libraries.....    30
Statement Submitted by American Library Association..............    32
Statement Submitted by Congressional Data Coalition..............    37
Statement Submitted by Enoch Pratt Library.......................    39
Statement Submitted by Hawaii State Public Library System........    40
Statement Submitted by Internet Association......................    41
Statement Submitted by Library Board of Rhode Island.............    43
Statement Submitted by Library Journal...........................    44
Statement Submitted by Medical Library Association...............    46
Statement Submitted by Mississippi Library Association...........    48
Statement Submitted by Ohio State Library........................    49
Statement Submitted by Rhode Island Coalition of Library 
  Advocates......................................................    50
Statement Submitted by Texas State Library and Archives 
  Commission.....................................................    52
Statement Submitted by Urban Libraries Council...................    53

                  Questions Submitted for the Record:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Dr. Carla D. Hayden, Nominee.......................    54
Hon. Pat Roberts, a U.S. Senator from the State of Kansas to Dr. 
  Carla D. Hayden, Nominee.......................................    58
Hon. Ted Cruz, a U.S. Senator from the State of New York to Dr. 
  Carla D. Hayden, Nominee.......................................    59
Hon. Charles E. Schumer, a U.S. Senator from the State of New 
  York to Dr. Carla D. Hayden, Nominee...........................    61
Hon. Mark Warner, a U.S. Senator from the State of Virginia to 
  Dr. Carla D. Hayden, Nominee...................................    64
Hon. Tom Udall, a U.S. Senator from the State of New Mexico to 
  Dr. Carla D. Hayden, Nominee...................................    67

 
                   NOMINATION OF DR. CARLA D. HAYDEN,
                      TO BE LIBRARIAN OF CONGRESS

                              ----------                              


                       WEDNESDAY, APRIL 20, 2016

                      United States Senate,
              Committee on Rules and Administration
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:17 p.m., in 
Room 301, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the Committee, presiding.
    Present: Senators Blunt, Cochran, Capito, Boozman, Schumer, 
Udall, Klobuchar, and King.
    Staff present: Stacy McHatton McBride, Staff Director; 
Shaun Parkin, Deputy Staff Director; Paul Vinovich, Chief 
Counsel; David Adkins, Counsel; Trish Kent, Senior Professional 
Staff; Nichole Kotschwar, Professional Staff; Jeffrey Johnson, 
Chief Clerk; Matthew McGowan, Professional Staff; Hans Hansen, 
Staff Assistant; Brittany Donnellan, Staff Assistant; Kelly 
Fado, Staff Director; Jay McCarthy, Director of Operations 
Oversight; Stacy Ettinger, Chief Counsel; Ben Hovland, Senior 
Counsel; Abbie Sorrendino, Legislative Assistant; Dana Gansman, 
Special Assistant; and Leigh Schisler, Special Assistant.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. This afternoon, we are here to talk about 
something that does not get discussed very often, which is who 
should be the next Librarian of Congress.
    As we all know, the nominee, Dr. Carla Hayden, is the 
President's nominee to be the 14th Librarian of Congress. Her 
successor, Dr. Billington, served ably for 28 years.
    Senator Schumer and I worked last year together to 
establish a term for this job, and so Dr. Hayden is the first 
person to be appointed for a specific term. That term would be 
10 years. There is no reason to believe you could not be 
reappointed to that term, but 10 years is enough time to get, 
we believe, lots of things done.
    This is an important job. It is an important office. I 
think Dr. Hayden has been a great representative of herself as 
she has met with members of the Senate. I know you are 
supported here today by your mother. It is always good to have 
your mother with you, and so I was glad to get to meet Dr. 
Hayden's mother, Colleen Hayden, sitting right there behind 
her. I also know that members of your family are going to be 
watching this close to where I live in Missouri, as they are in 
Illinois and other places in the middle of the country.
    We certainly are glad to be joined by our two colleagues 
from Maryland, by Senator Cardin and Senator Mikulski. If you 
would like to start, I would like you to be the first person to 
introduce Dr. Hayden to the Committee.

 STATEMENT OF HONORABLE BARBARA MIKULSKI, A U.S. SENATOR FROM 
                     THE STATE OF MARYLAND

    Senator Mikulski. Thank you very much, Senator Blunt, for 
organizing and holding this hearing, and to have done it in 
such an expeditious way. We know that the president has 
nominated Dr. Hayden just a few months ago, and after the 
appropriate and rigorous vetting process, you have moved on 
this, and we sincerely want to thank you for that courtesy, and 
Senator Schumer, you as well.
    We, in Maryland, are here to support the nomination of Dr. 
Hayden to be the chief librarian of the Library of Congress. We 
are so happy that her mother, Colleen, has joined her today. I 
feel a close relationship with both of them. Colleen is also a 
sister social worker.
    And by the way, the Maryland delegation is not trying to 
change the Constitution. There are only two senators elected at 
the moment, but former Senator Sarbanes, our emeritus, is also 
a very active member of the Enoch Pratt Board, and so he is 
here with us today to show support and solidarity.
    As you walk out in the audience, you see a unique group of 
people of all ages and diversity who are here to support Dr. 
Hayden as well. These are the people of the Board and the 
Executive Advisory Committee who, in their own time and their 
own dime, worked to make the Enoch Pratt Library one of the 
best and premiere library systems in America. And the fact that 
she has such broad support, I think, indicates what her 
leadership has been.
    Dr. Hayden has been the CEO of the Enoch Pratt Library for 
over 20 years. Her nomination is bittersweet. It will be a 
great, great gain for the nation, but it will be a loss for 
Baltimore. We will be very proud if Dr. Hayden is confirmed 
because she, once again, will be a first, the first African-
American and the first woman to be the Librarian of Congress.
    But it is not about only breaking barriers. It is about all 
what she will bring. As I bring someone forward for support for 
confirmation, I look, do they have competence, do they have 
commitment to the mission of the agency, and do they have 
integrity? Dr. Hayden meets all three of those. She surpasses 
those high standards. Her track record is proof enough, but 
when you meet her, as you have, you will know that it is her 
character and commitment that really shines forth.
    Dr. Hayden was born in Florida, and by any metrics, to 
measure who should be the top librarian for the United States 
of America, is Dr. Hayden. Her academic career speaks for 
itself--Bachelor of Arts Roosevelt University, a master's and a 
Ph.D. from the esteemed library school of the University of 
Chicago. She started her career as a library service 
coordinator at the Museum of Science and Industry in Chicago. 
She was an assistant professor at the University of Pittsburgh, 
went back to Chicago to work there.
    There she rose through the ranks as one of the top 
children's librarians in the United States of America. Then 
Baltimore called, and she came 20 years ago to what was really 
one of the early libraries in the United States. But the Enoch 
Pratt was not only a great repository, it had to be modernized. 
And that is where she showed not only that she was a great 
librarian, but that she was a superb manager. She guided 
through a fundraising effort to improve the annex. She made 
sure that what she did also was to digitize the library, and 
then find a way, in very tight budget conditions, to take the 
library throughout Baltimore and even throughout this state.
    Professionally, she has received the Librarian of the Year 
Award. She has been the past president of the American Library 
Association. She has received the American Library Association 
Esteemed Lippincott Award, given to those libraries for 
outstanding and distinguished service.
    Right now she is overseeing a $114 million renovation of 
the Enoch Pratt. She has worked with legislatures, with city 
councils, of which I serve, with the Maryland General Assembly, 
which Senator Cardin and Senator Sarbanes have served, so she 
knows how to work with the elected, but she knows how to work 
with people.
    If you saw where our library was, in leafy, prosperous 
neighborhoods and in harsh gravel neighborhoods, the library is 
there, open to all, serving all. And during the--last year, 
during our really tough challenges, when we were facing the 
uprising because of Freddie Gray's death, the schools closed. 
Across the street from what they called Ground Zero, at a 
street called Pennsylvania Avenue and North, there was a burnt 
out CVS, because it had been raided for opioids, a scourge you 
are so familiar with. You have been an advocate on solving.
    But across the street from that was the Enoch Pratt Penn 
North Library. Dr. Hayden kept that library open and she kept 
libraries open during the entire period. Children had a place 
to go. The community had a place to gather. And when the 
feeding program stopped because there was fear of coming into 
the neighborhoods, they came to the library. And so literally, 
Dr. Hayden's leadership and her grit, and the staff that she 
inspired, fed body, mind and spirit during those very tough 
days.
    I think this is someone who brings a distinguished academic 
career, a credentialed career, a strong fiscal manager, and 
really, a fantastic human being. And I am honored, honored, 
honored to present her to you.
    Chairman Blunt. Thank you, Senator Mikulski.
    Senator Cardin.

  STATEMENT OF HONORABLE BEN CARDIN, A U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Chairman Blunt, Senator Schumer, Senator 
Cochran, Senator Capito, thank you very much for being here, 
and thank you for allowing Maryland to have three United States 
Senators today. It is great to be here.
    Senator Schumer. I ask unanimous consent that be made 
permanent.
    [Laughter.]
    Chairman Blunt. Well, we are holding an objection here.
    Senator Cardin. But I join with Senator Mikulski in strong 
support for Dr. Hayden. We are very proud of her leadership in 
Baltimore, and we know that she will do an incredible job at 
the Library of Congress.
    And it is great to be here with Senator Sarbanes, who has 
taken a great interest in the Pratt libraries in Baltimore and 
has been a great champion of these issues in our state, in our 
nation.
    We are here with a lot of people from our community that 
Dr. Hayden has worked with and has championed over her tenure 
at the Enoch Pratt Library. Today's hearing is well timed. This 
Sunday marks the 216th anniversary of the creation of the 
library in 1800. So Senator Mikulski and I were blessed to be 
Baltimoreans by birth. Other people, such as Dr. Hayden, had 
the good sense to move to Baltimore.
    For the last 23 years, she has directed the Enoch Pratt 
Free Library, which is not as quite as old as the Library of 
Congress, but it was established in 1882, a great tradition for 
our community, making it one of the oldest free public 
libraries in the nation.
    In 1994, Maryland was the first state in the nation to 
offer statewide internet service to its residents with the 
introduction of SAILOR, Maryland's online public information 
network. The SAILOR operation centers house an Enoch Pratt 
Library State Resource Center. So Dr. Hayden does not just run 
the public library system for Baltimore City, she oversees the 
state library resource center, which provides all Marylanders 
with access to internet and other services. I think that skills 
will--be very well for her as she takes on the responsibilities 
of the Library of Congress, which as you know, not only 
throughout our country, is actually a world resource.
    During Dr. Hayden's tenure, eight of the Enoch Pratt 
branches were either opened or reopened or renovated. I mention 
that because we have people here--Rachel Monroe is here, who 
runs the Weinberg Foundation--partnered with Pratt Library to 
be able to put libraries in schools that didn't have libraries 
in Baltimore City. It was that type of creativity that Dr. 
Hayden encouraged, that is, leveraging private sector 
involvement with our schools to make sure that we had access to 
libraries for all children in Baltimore.
    As Senator Mikulski said, during disturbances in Baltimore, 
yes in Sandtown we had a library that was literally a place 
where people could go and knew that they were going to be safe. 
Right after the disturbances, I was in Sandtown. I was in that 
library. I did meet with people in that library, and it was a 
center where people gathered. And Dr. Hayden understands that. 
The libraries in Baltimore have been more than just the 
traditional libraries. It has been a place in which a community 
could grow and have confidence and children could go for peace 
and quiet.
    It is no surprise then that Dr. Hayden was named Library 
Journal Librarian of the Year in 1995, and was elected to serve 
as president of the American Library Association from 2003 to 
2004. Before Dr. Hayden moved to Baltimore, she was assistant 
professor for library and information science at my alma mater, 
the University of Pittsburgh, from 1987 to 1991, further 
evidence of her excellent judgment.
    She has an outstanding resume. She has experience. She has 
the integrity. She has the proven leadership, and she has 
delivered results. So in addition to being superbly qualified, 
Dr. Hayden will make history as the first African-American, the 
first female to be Librarian of Congress, bring a fresh new 
perspective to the job and its challenges.
    And I agree with Senator Mikulski, Dr. Hayden is the best 
qualified for this position, and she will bring the 
perspectives that I think are needed to take the Library of 
Congress to its next chapter in the history of our nation. What 
a great resource we have. We all know that. This is a world 
resource. Whenever there is a slow day here, I love to go over 
to the Library of Congress and just get inspired. I honestly 
and truly believe that Dr. Hayden will take that library to the 
next chapter, and a proud chapter, for the American people, and 
I strongly endorse her candidacy.
    Chairman Blunt. Thank you, Senator Cardin. Senator 
Sarbanes, we would love to hear from you if you have a comment 
or two.

  STATEMENT OF HONORABLE PAUL SARBANES, A FORMER U.S. SENATOR 
                   FROM THE STATE OF MARYLAND

    Senator Sarbanes. Chairman and Senator Schumer and members 
of the Committee, thank you very much for your generosity in 
letting me say just a few words.
    My wife served for many years on the Enoch Pratt Free 
Library Board. It was a very large part of her life and she was 
very committed. When she passed away, the library people were 
more than generous and placed me on the Board, and I have been 
on the Board now for the last six years. So I have had an 
opportunity to observe Carla Hayden at work very closely. I 
mean, I want to tell you, this is an extraordinarily abled, 
dedicated, committed person, and I cannot tell you how excited 
I am about her nomination to become the Librarian of Congress.
    The nation will be extremely well served by her. The Pratt 
Library had her leadership for 20 years, and we prospered and 
thrived under it. Enoch Pratt was a 19th Century merchant who 
established the library back in well, now two centuries ago, 
and had the foresight to say it was going to be open to all, to 
all. And Carla Hayden has carried that through, and the library 
has been an incredibly strong fundamental institution in our 
community.
    She will do an absolutely terrific job as a Librarian of 
Congress. Well, the three senators here have represented 
Maryland in the Senate over the last 30 years, so you have a 
strong recent endorsement of this point of view, and I strongly 
urge her confirmation by the Committee. Thank you very much.
    Chairman Blunt. Well, thank you, Senator Sarbanes. Senator 
Mikulski has let me know recently that beginning next January, 
the Senate should particularly listen to former senators and 
the good advice they would have. And Dr. Hayden, to be joined 
by Senator Cardin and Senator Mikulski, two of the most highly 
respected members of the Senate, and all three of these people 
talking about your great leadership for two decades at the 
Enoch Pratt Library, means a lot to me, and I am sure the 
Committee.
    I had an additional recommendation for the record. I was at 
the Ferguson, Missouri Municipal Library just last week. That 
library was named the Gale Library Journal Library of the Year 
for 2015, and I know that you and Mr. Bonner, the director of 
that library, Scott Bonner, have presented together on a couple 
of panels about how the library can fill its needs in times of 
unrest. Both of your libraries became safe havens when schools 
were closed, when local businesses were closed, when government 
offices were closed. Your library and that library stayed open.
    Mr. Bonner, who I had talked to earlier on the phone about 
you, told me that for him, you were a personal hero and he 
thought you were the most capable individual possible to run 
the Library of Congress, so that was a pretty good 
recommendation from a Missourian about what you have done.
    The role of the Librarian of Congress involves much more 
than the title would indicate. The Library of Congress is our 
country's oldest cultural institution and was created by our 
founders, as Senator Cardin said, over 200 years ago, in 1800. 
And it was created to promote scholarship, to promote 
creativity, and really with the goal of becoming a world class 
repository for a vast collection of works.
    Leading the Library of Congress requires multi-tasking on a 
scale that is rarely necessary in almost any other government 
organization. The Library secures and preserves the world's 
largest collection of books and other creative works, including 
the largest database anywhere of copyrighted works. The 
Librarian manages more than 3,000 people. The Librarian serves 
as an impartial and objective head of Congress' research 
organization, and the Librarian oversees the Copyright Office.
    Sounds like a big job, and we are here to talk to you about 
it. The vital role that is played in cultural preservation and 
scholarship, has been run by individuals with lots of different 
backgrounds, and not that many of them. In the history of the 
country, going back to 1800, there have been only 13 previous 
librarians. One was a medical doctor. One was an editor. There 
was a journalist, a printer, a poet, a political scientist, and 
a historian. Two clerks of the House of Representatives were 
Librarians of Congress, two lawyers, and two individuals who 
were either a professional library administrator or had prior 
library experience. In fact, the longest serving Librarian of 
Congress who became librarian at the turn of the 20th Century 
and served right up until the beginning of World War II, 
serving for four decades, was a lifelong library administrator.
    It is fitting, I think, that the nominee comes here today 
with the background in her professional life as a librarian and 
a scholar in the library sciences. She is the CEO at the Enoch 
Pratt Library, but also has been the chief librarian of the 
Chicago Public Library, and an assistant professor at the 
University of Pittsburgh School of Library and Information 
Services.
    Now, the next Librarian of Congress will lead an 
organization that has really had significant physical and 
technological limitations and is struggling to adapt to a new 
century. Due to the historic shortage of storage space, the 
library has millions of items stored improperly and needs to 
find a better way to store them. There is risk of degradation 
of some of the collection.
    In addition, recent information technology management 
challenges have raised questions about the Library's ability to 
serve future generations as more and more collections need to 
be digitally collected, preserved and made available to the 
public. I certainly look forward, Dr. Hayden, to hearing your 
testimony today on your vision as to how this job needs to be 
done.
    Before I turn to Senator Schumer, just a couple of 
housekeeping comments. The Committee will be accepting written 
testimony from outside parties until Wednesday, April the 27th. 
Information on how to submit written testimony can be found on 
the Rules Committee Web site. In addition, the Committee will 
keep the record open for members of the Committee to submit 
questions for the nominee until Wednesday, May the 4th.
    As already been mentioned, Senator Schumer and I worked 
last year to create the first defined term which set a term, 
but also sets a framework of opportunity, and we have been glad 
to work together on those and other issues, and I would like to 
turn to him now for his comments.

OPENING STATEMENT OF SENATOR CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. I have an opening 
statement, but if our colleagues--I know their schedules are 
busy--if you have to go, you can read my statement in the 
record, if you would prefer.
    Senator Cardin. I will take you up on that.
    Senator Schumer. Thank you. And I want to thank all of my 
colleagues, my two present colleagues and my former colleague, 
Senator Sarbanes. To him, I would say ``yasuo.'' Because we saw 
each other at the Greek Independence Day Parade in New York a 
week or two ago.
    Okay. Well, I want to thank you, Mr. Chairman, for moving 
forward with this nomination. And Dr. Hayden, I would like to 
welcome you here today. I congratulate you on your nomination 
as the 14th Librarian of Congress. My colleagues, Senator 
Mikulski and Cardin, my former colleague, Senator Sarbanes, 
have been effusive in their praise. I share their enthusiasm 
for your nomination.
    Under your leadership, the Enoch Pratt Free Library has 
flourished and serves as an indispensable beacon of higher 
learning and civic engagement for the City of Baltimore and the 
entire State of Maryland, and it is no surprise, given your 
four-decade career of success and exemplary work in the library 
sciences.
    I have no doubt about your qualifications or your ability 
to lead the Library of Congress.
    So I would just like to take a moment to talk about the job 
you have ahead of you, as I see it.
    The nomination of a new Librarian comes at a crucial 
juncture. We need to ensure that the Library has the resources 
to fulfill its mission--to make its vast collection available 
and useful to the American people, and to sustain and preserve 
this unique collection of knowledge and creativity for future 
generations.
    In addition, maintaining an effective national copyright 
system is an integral part of that mission. Content creators 
and businesses must be able to promptly register and record 
their copyright interests. Individuals and businesses must be 
able to readily obtain copyright information that enables them 
to license copyright works.
    For that to happen, the Copyright Office must be innovative 
and efficient. A critical first step is to bring the Copyright 
Office IT system up to date. In the digital age, issues related 
to copyrightable content and protection of that content are 
constantly evolving. So a big priority, it seems to me, for the 
new Librarian, should be the implementation of IT investment 
and planning practices that focus on the Copyright Office.
    There is a lot of hard work ahead for the new Librarian, 
balancing competing pressures, budgetary restraints. That work 
is usually important. Thankfully, in nominating Dr. Hayden, who 
Fortune magazine recently called one of the world's 50 greatest 
leaders, I believe the President has put forward a candidate 
capable of meeting the Library's many challenges, and extending 
its reach beyond its marble halls to further enrich the lives 
of all Americans.
    Dr. Hayden, I believe you're the right person to pursue a 
bold vision of the Library's future. It is my hope you will be 
swiftly confirmed, and I look forward to working with my 
colleagues to make that happen shortly.
    Chairman Blunt. Thank you, Senator Schumer. We are going to 
go to questions after your opening statement, so we look 
forward to that.

 STATEMENT OF DR. CARLA D. HAYDEN, NOMINEE TO BE LIBRARIAN OF 
                            CONGRESS

    Dr. Hayden. Well, good afternoon, Chairman Blunt, Ranking 
Member Schumer, and distinguished members of the Committee. It 
is truly, truly a great honor to be here today as you consider 
my nomination as the 14th Librarian of Congress. Of all the 
titles I have had in my professional career, I am most proud to 
be called a librarian, and it would be my honor to have the 
opportunity to be the librarian of the oldest cultural 
institution in the nation, the Library of Congress.
    It is especially fitting that this testimony is being given 
in the week following National Library Week, a time when 
libraries of all types and sizes are celebrated and recognized 
for their work, and I am very pleased that my colleagues--many 
of them are here today. I also want to take this opportunity to 
thank the senators from Maryland, all three, Senator Mikulski, 
Senator Cardin, and of course, Senator Sarbanes, for being here 
today.
    Now, this nomination at this time provides an opportunity 
for me to combine and build on various aspects of my personal 
and professional life. And my love and passion for reading 
books started at a very early age when my mother, who is here 
today, helped me check out a book, Bright April, the story of 
an African-American girl with pigtails, from a storefront 
branch in Queens. And I spent summers across from PS 96. I 
spent summers in Springfield, Illinois, accompanying my 
grandfather, a retired postal worker, to the capitol and the 
state library, where a fellow church member kept a small 
collection of books by and about African Americans.
    These experiences and more were the start of my love of 
books and my steps into libraries. But it wasn't until I met a 
lady, Judy Zucker, at another storefront, this time in Chicago, 
where my vocation began. She was on the floor during story time 
for children with autism, demonstrating the power of a 
librarian's work, and all of my subsequent professional 
experiences were vital to my directorship of the Enoch Pratt 
Free Library, for years a leader in public and reference 
service, and it also is the state library for Maryland.
    I had the honor of being president of the American Library 
Association, ALA, with over 63,000 members. And I led the 
organization at a time when libraries across the country 
started to experience severe economic challenges. It was a time 
of increasing public demand for computer accessibility and also 
the need to protect the user's privacy.
    And now I have the distinct honor to be nominated to be the 
Librarian of Congress with various mandates and 
responsibilities. As you know, the staff members of the 
Congressional Research Service are what we call the special 
forces who support Congress and perhaps are the Library's most 
important constituency. The Library of Congress celebrates the 
works of authorship, and by way of the Copyright Office, 
provides services and support to creators of content. And I 
must say, that coming from a family of musicians and artists, I 
understand the blood, sweat and soul that goes into the 
creative process, and I look forward to working with Congress 
to ensure a fully functional Copyright Office that supports the 
community it serves.
    As I envision the future of this wonderful institution, I 
see it growing in its stature, not only in librarianship, but 
in how people view libraries in general. As more of its 
resources are readily available for more people online, users 
will not have to be in Washington, D.C. Everyone will have a 
sense of ownership and pride in this national treasure.
    A child on a reservation in New Mexico will have the same 
access as a high school student in St. Louis, Missouri. A fifth 
grader in Bowling Green, Kentucky, would be able to view 
Abraham Lincoln's papers from his home computer, and a shy 
tenth grader from Meridian, Mississippi, with dreams of 
performing, would be able to view the Library's Leonard 
Bernstein collection. A student from a community college in 
Kansas could look at and even download revolutionary war maps 
for a class assignment.
    And this would help libraries across the country. A small 
library in Arkansas with a modest budget will be able to help 
patrons assess primary studies of George Washington's papers, 
and a rural library in Alabama will be able to connect through 
a live feed to the National Book Festival and see and hear 
their favorite authors. I envision a Library of Congress that 
can balance its various roles and important roles in a digital 
age at a time when libraries throughout the world face many of 
the same challenges, when their very existence is being 
questioned. The Library of Congress should continue to be a 
leader.
    I would be honored to be part of a legacy and 
accomplishments of my predecessors in this position, to be part 
of a continuing movement to open the treasure chest that is the 
Library of Congress. This can be done without threatening the 
Library's core responsibilities to support and advise Congress, 
to serve users of the Copyright Office and assist researchers 
who benefit from its exhaustive collection.
    If confirmed, it would be my privilege to join the 
dedicated staff and supporters of the Library to ensure that 
its treasures are secured and shared for many years to come. 
Thank you for your consideration and I look forward to 
answering your questions.
    [The prepared statement of Dr. Hayden was submitted for the 
record:]
    Chairman Blunt. Well, thank you, Dr. Hayden. We are going 
to start with a five-minute round of questions, and there will 
be a time for a second round, so we are going to stay pretty 
close to five minutes on that first round, and people can ask 
other questions later if they have time to stay.
    You mentioned your predecessor. Of course, Dr. Billington's 
28 years in the Library saw lots of growth in the Library, lots 
of growth in the collection. His leadership doubled the 
traditional analog collection that transformed the first 
independent building for the Library, the Jefferson Building, 
into a national exhibit venue that has hosted over a hundred 
exhibits and established a host of new programs. He also 
launched a new field of outside fundraising, which librarians 
had not done in the past, and any comments you have about 
continuing that would be helpful.
    And then I would also like to know what new perspective you 
bring to this, understanding the mission of the Library, and 
how you think you are going to be able to build on that 
Billington foundation.
    Dr. Hayden. Well, thank you, Senator, for mentioning the 
legacy that I would be honored to help continue. At each time 
each of the Librarians of Congress have contributed greatly to 
the progress of this institution, and most recently--and Dr. 
Billington reached out to me and he has offered assistance, and 
I would love to take him up on it, to build on the private 
fundraising and the efforts that he has made. He established 
the James Madison Council that has garnered so much support, 
and actually helps fund the National Book Festival, provides 
many special programs that would not be possible without that 
public/private partnership.
    And so in terms of continuing, it would be very much, I 
think, advantageous to build on the preservation of the 
collection, as well as the efforts to use technology to 
modernize access to the collections.
    Chairman Blunt. Thank you. Let's go ahead to questions. 
We'll go to Senator Schumer, and then in the order of 
attendance, members were Capito, Klobuchar, Cochran, King, 
Boozman and Udall. So it will be Schumer, Capito, and then we 
will see who is here after Senator Capito.
    Senator Schumer. Well, thank you. My first question is just 
out of historical curiosity. Could you tell us a little about 
Enoch Pratt? His name is everywhere, the Enoch Pratt Library, 
and they said he was a merchant.
    Dr. Hayden. He did quite well at being a merchant.
    Senator Schumer. He sure did.
    Dr. Hayden. And I am smiling because Enoch Pratt came from 
Middleborough, Massachusetts, to make his fortune in Baltimore 
right after the Civil War, and he did quite well. He developed 
into a banker, and when Andrew Carnegie, who is widely----
    Senator Schumer. Yes.
    Dr. Hayden [continuing]. Credited with, and rightfully so, 
establishing public libraries throughout the country, was not 
having such a good time at first. He heard about Mr. Pratt in 
Baltimore and came and visited Baltimore, and Mr. Carnegie said 
later in his book, The Gospel of Philanthropy, he knew of no 
other public/private partnership that was better established 
than Mr. Pratt's. He said he wanted his library free of 
politics and religion, and also free to all without distinction 
of race or color in 1886.
    Senator Schumer. That is pretty good.
    Dr. Hayden. And gave a million dollars.
    Senator Schumer. Wow.
    Dr. Hayden. 1886.
    Senator Schumer. Wow. That is great. Well, it is good to 
just know that little bit of historical----
    Dr. Hayden. Thank you.
    Senator Schumer [continuing]. Knowledge. Okay. My first 
question, as you know, the Library's responsibilities include 
the acquisition, maintenance and preservation of millions of 
items and the wide range of traditional and new media; the 
administration of copyright laws; and national programs to 
provide reading material to the blind and handicapped.
    But could you just give us a short list of some of your 
priorities?
    Dr. Hayden. It has been mentioned, and thank you for 
bringing up the list of responsibilities, and also referring to 
one of the biggest challenges, but I am very pleased to know 
that this part has been advanced, making sure that the Library 
has the technology infrastructure----
    Senator Schumer. Yes.
    Dr. Hayden [continuing]. To accomplish its many roles, 
particularly with the Copyright Office, and modernizing all of 
its operations. The expansion of the technological capacity 
will help in not only preserving and making the materials and 
the extensive collection available, but also stabilizing and 
making the Copyright Office secure.
    I mentioned that I have a number of artists and creators in 
my family, and I know the importance of copyright and making 
sure that people enjoy the content, but also respect the people 
who create it.
    Senator Schumer. Great. Thank you. Second, the National 
Library Service provides important services to blind and print-
disabled readers so that, ``All may read.'' NLS regional 
libraries work to make content available to eligible users in 
accessible formats. This service is critical to the blind and 
print-disabled readers of New York.
    So tell me a little bit about your vision for NLS. How do 
you see the NLS adapting to meet the evolving needs of the 
nation's readers?
    Dr. Hayden. Again, I am very pleased that you mentioned 
that aspect of the Library of Congress' responsibilities. It 
does not always receive as much attention, but it is vitally 
important. In my experience in Illinois, and also in Maryland 
in the state role, I have had the opportunity to work with the 
libraries for the blind and physically handicapped, and one 
thing that would be very helpful would be to make sure that 
materials that are digitized are available in formats that 
would allow people with challenges to read in various ways.
    And so I would be very--if confirmed, very interested and 
very supportive of expanding that role.
    Senator Schumer. Great. And final question, in nominating 
you to be Librarian of Congress, President Obama cited your 
technological accomplishments at the Enoch Pratt Free Library. 
How do you see both the Library of Congress and the Copyright 
Office using upgraded IT systems to advance their respective 
missions?
    Dr. Hayden. I mentioned that I have been very heartened to 
actually have discussions with the new chief information 
officer at the Library of Congress. He was appointed in 
September as a result of a lot of the concern of the 
technological needs of the Library of Congress, Mr. Bernard 
Barton. And he has, in that time, accomplished quite a bit in 
terms of addressing everything in the Government Accountability 
Office report in terms of assessing the needs of the Library of 
Congress and also making sure that the basic infrastructure can 
support a fully functional and efficient Copyright Office.
    He has assured me--and I am glad that we are on the record, 
and I will quote him--that if I am nominated--well, I am 
nominated--but if confirmed, technology will not be a problem. 
And he is very competent. He comes from the Department of 
Defense.
    Senator Schumer. Great. Thank you, Mr. Chairman.
    Chairman Blunt. Thanks, Senator Schumer.
    Senator Capito, and then after that Senator Klobuchar.
    Senator Capito. Thank you, Mr. Chairman, and thank you, Ms. 
Hayden, for not just your service, but the visit to, I am sure, 
a lot of our offices for a chance for us to get to know you 
preceding this hearing. I appreciate that.
    And I think in that conversation you and I talked that I am 
the subcommittee chair of the Legislative Branch on the 
Appropriations Committee, and so my purview is with the Library 
of Congress. So if everything goes according to plan, I think 
we are going to get to know each other very well.
    So I want to ask, first of all, you mentioned the new chief 
information officer, which I understand is working well, but 
there is also another new division called the National and 
International Outreach. You and I talked about this just sort 
of briefly in the office. I did not know--I know it is early--
but how much time you have had to really look at this. You said 
that your library has availed yourself many times of the 
services of the Library of Congress. I did not know if you had 
any initial thoughts on that particular part.
    Dr. Hayden. Thank you, and I smiled because I had another 
wonderful session with the head of the newly formed National 
and International Office. It is six months old at the Library 
of Congress, and its mandate is to expand the outreach of the 
Library's programs and even exhibits throughout the country and 
the world. And it is being led by former president of Bryn Mawr 
College, and also most recently, the Kluge Center at the 
Library of Congress, and that office is looking at all of the 
ways that it can help, and with Mr. Barton, with the technology 
infrastructure, it is an exciting time.
    So six months in, but it seems like it is going to be quite 
an effective way to get the resources out.
    Senator Capito. Well, I look forward to that. Now, you 
mentioned in your opening statement that the CRS, or the 
special forces--and all of us, I'm certain, here have availed 
ourselves of the well-respected research reports that they 
generate for legislative debate, but this is a bit of a--the 
question I am going to ask is maybe a little bit of a sticky 
wicket here, but members of the public generally do not get 
access to these reports unless it is through a congressional 
office or through private databases.
    And you probably know that there is a discussion and some 
legislation actually as to whether or not these CRS reports 
should be made available to the public. So without asking you 
directly if you want to weigh in on that, I would be happy to 
hear, but I did not know if you had--I would encourage you, or 
if you had already put some previous thought into ways that the 
CRS reports could--and CRS itself could sort of modernize maybe 
some kind of a phone app or something of that nature where 
there is more accessibility to these very valuable reports.
    Dr. Hayden. I think that--what has been interesting, I have 
heard different views on the amount of accessibility of the 
reports that are very extensive. There is so much research that 
goes into them. There is confidentiality in terms of being able 
to provide the information, and I would really look forward to 
the opportunity to study and work with Congress on the cost, 
staffing, and other aspects of making parts of the reports 
available, how you make them available, without stepping over 
the line though in terms of making--stepping over the line in 
terms of how much public----
    Senator Capito. Access.
    Dr. Hayden [continuing]. Service you provide. This is the 
special forces and research arm for Congress, and so as a 
public librarian, I know that you do have to balance those two.
    Senator Capito. Right, and I do think that will probably be 
a discussion that will be occurring over the next several 
years. I just wanted to kind of jump in on the IT issue. And 
when we are looking at the funding issues, there have been 
broad requests for more IT funding. The Library has made some 
pretty systemic changes in terms of trying to address that 
issue.
    I would just say that, you know, as a member of the Senate, 
as this valuable resource that we have at the Library of 
Congress, I think you will find a lot of support for the 
biggest and broadest information technology programs that you 
may need that kind of jump us into the next trunch. I know you 
pretty much addressed the issue with Senator Schumer, so I 
would just kind of associate myself with his remarks.
    Dr. Hayden. Thank you. It is a challenge, but I have been 
assured that they are well on their way.
    Senator Capito. Thank you very much.
    Chairman Blunt. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. 
Congratulations, Doctor, on your nomination. I enjoyed the 
discussion we had on the phone. A lot of people have been 
focusing on the copyright issues, technological issues, which I 
think are really important.
    But there is one thing I will mention. Senator Leahy and 
Senator McCain have a bill, and I have joined with them on this 
bill. And it is about the subject just raised on the--Senator 
Capito raised on CRS. As you know, the Library oversees the 
CRS, and although CRS does not make its reports public, paid 
Web sites often obtain copies of many of the CRS reports and 
then charge their clients for them.
    Those same reports are not available to Americans, yet 
their taxes fund the CRS. If lobbyists can buy the report, 
Senator Leahy, Senator McCain and I believe that they should be 
available to all Americans, given that the Americans are paying 
for those reports. And that is why I am co-sponsoring this 
bill. It is called Equal Access to Congressional Research 
Service Reports Act, and it would ensure that taxpayers have 
equal access to the reports on a free and public Web site.
    And you may or may not want to comment about this bill, but 
in your view, what is the role of the Library of Congress in 
promoting transparency of government and making information 
more accessible to Americans?
    Dr. Hayden. Well, thank you for that, because it shines a 
light on the excellent resources and reference services of the 
Congressional Research Service and what it does for Congress. 
And I have heard different views on--and I alluded to that--on 
how to make the reports and what portions of the reports, when 
in the process of reference information is made available, and 
I look forward to investigating that even more if confirmed, to 
study how and when public access could benefit.
    A lot of research goes into those reports.
    Senator Klobuchar. Yeah, of course, and I am looking 
forward to looking into this more myself. I am a co-sponsor, 
because to me, it just made no sense at all that these are 
government reports and that they should be available to all the 
public, and then they are being--lobbyists are charging their 
clients to see the work that the government performed at the 
taxpayers' expense. So I think it is going to be interesting to 
look at that more, and I appreciate going on this journey 
together after hopefully you get confirmed for this position.
    You have also held the position of president of the 
American Library Association. How do you see that position 
helping you? You must get to know a lot of the librarians all 
over the country. I know we were talking about the--at the 
anniversary of women's right to vote, and some of the things I 
am hoping we can do with that, and could you talk about how 
knowing some of these librarians and working with them all 
across the country will be helpful in your current job that you 
are seeking?
    Dr. Hayden. Well, thank you for acknowledging my 
colleagues, and many of them are here today, including a strong 
contingent from Maryland. And having the support of the broader 
library community, even getting support from 56 graduate 
library schools that are preparing librarians for the future, 
academic libraries, colleges and universities, special 
librarians who especially--I work with companies and 
businesses, and also K-12 librarians in schools all over the 
country, really helps define what a lead library, like the 
Library of Congress, can be.
    And to be able to network together helps all libraries, 
especially the ones that are, as I mentioned in the opening, 
having their very existence challenged in the age of 
technology, so grouping together, showing people that there is 
a continuum from their local library in a small town. I will 
mention Sparta, Illinois, a coal mine--former coal town, and 
then having the resources of the America's library being able 
to be put right there will strengthen the network, and I think 
help create what libraries have always done, and informed 
electorate and citizen.
    Senator Klobuchar. Very good. Well, thank you. As I told 
you on the phone, when I was little, my dream was to be a 
librarian, and I started my own book catalog with the Dewey 
Decimal System in a recipe box, but then I got----
    Dr. Hayden. You were very good.
    Senator Klobuchar [continuing]. This job, so it is what it 
is. Anyway, thank you very much, and good luck.
    Dr. Hayden. Thank you.
    Chairman Blunt. Talk about blatant appeal to the crowd, 
having your own Dewey Decimal System.
    Senator Klobuchar. In a card box?
    Chairman Blunt. Exactly. Exactly.
    Senator Klobuchar. Thank you. Thank you, Senator. I will 
consider that a compliment.
    Chairman Blunt. It was a compliment. Just shows your total 
capacity to get to the right point at the right time.
    Senator Cochran, and then Senator King.
    Senator Cochran. Mr. Chairman, I am honored to be able to 
be here today serving as a member of the Committee to 
congratulate our newest nominee for this important job as 
Librarian of the Congress. Rather than to delay the questions 
that others might have, let me just say that I think this is a 
great day for the Library of Congress. It is a great day for 
the United States Senate, and many of those expressions of 
support and appreciation and admiration came through during the 
delightful event last night that I was pleased to join.
    So we look forward to working with you as a member of the 
Oversight Committee, and wish for you all of the successes that 
you can imagine.
    Dr. Hayden. Thank you, Senator.
    Chairman Blunt. Thank you, Senator Cochran.
    Senator King and then Senator Boozman.
    Senator King. Thank you, Mr. Chairman. Dr. Hayden, welcome 
to the Committee. Appreciate your testimony and appreciate your 
willingness to undertake this important job.
    I want to talk for a few minutes about copyright. It seems 
to me that is one of the most important jobs before you in 
terms of organization, IT, policy. Copyright, I try to explain 
copyright to my children, and their eyes glaze over. They do 
not know it even exists. We have a lot of work to do and 
copyright is very complex.
    And I guess one of my questions, it is untoward, I suppose, 
to ask someone at their confirmation hearing about the idea of 
divesting part of their responsibility, but what are your 
thoughts on the possibility of spinning out the Copyright 
Office, having its own presidentially appointed director? It 
seems to me that the fact that it is lodged in the Library as a 
kind of historic artifact, should it--given its importance in 
our society of intellectual property, should it have its own 
separate existence?
    Dr. Hayden. Well, thank you for mentioning young people as 
well. I would like to address that and how we could work to 
make the new digital generation, that they are digital natives, 
to be aware of what the ``C'' means. It should mean caution, 
and they should respect the fact that they are looking at 
something. Whenever they see that ``C,'' that should be almost 
a red or a yellow light for them. And they should be taught as 
early as second or third grade.
    They should have--one of my favorite examples is to have a 
project that they worked two or three hours on and they really 
are proud of it and then you turn to them and say, Johnny, I am 
going to put Ed's name on it. And that is the most graphic way 
to let them know that art and creativity should be protected. 
They should get credit for it and they should do that.
    In terms of the independence of the office itself, I have 
heard quite a few proposals, and they all get back to the core 
concern, and one that I share, that the Copyright Office should 
be fully functional and should have its independence to carry 
out its mandates the creators of content. I have mentioned my 
own personal history, a father who was a recording artist and 
going into a mall and hearing snippets of his music, and also 
knowing that it is vital that artists and creators of content 
get to register their works and even challenge the use of their 
works in a timely and efficient fashion.
    And so I, if confirmed, would take special interest in 
making sure that that office is able to perform its functions 
in a way that will protect the people that it serves, and that 
is the creator of the creations of--creators of content.
    Senator King. You think it would assist in that project if 
it had its own separate presidentially appointed director, was 
an office unto itself?
    Dr. Hayden. I am not able to at this point say that that 
would be the only way to accomplish what we all want. And I 
have heard so many, not only congressional advocates and the 
creative community, we all want, and I am including myself in 
that community, want to make sure that that office has 
everything it needs. And so if confirmed, I would like to work 
with Congress and to examine how we could really make sure that 
that happens.
    Senator King. Moving on to your discussion, there's been a 
lot of discussion about the IT and the need for upgrading. We 
need to digitize the collection. We need to make it accessible, 
which you have clearly stated as a goal. You talked about your 
new CIO. I do not know him. I am sure he is terrific, but I 
have one piece of advice dealing with IT on a large scale. 
Number one, trust but verify. Do not always go on what the IT 
people tell you. You sit down at the computer and make the Web 
site work, and if you cannot make it work, ask them why.
    As governor, I used to have fun calling the 800 numbers in 
my state to see what you get for an answer and how long it 
takes them to answer. I am serious about this.
    Dr. Hayden. I know.
    Senator King. Because quite often--I once was setting up a 
hearing here as a staff member. I called someone and said, who 
is going to be the witness? They said it was Deputy 
Undersecretary, and I said, I do not know titles. Who is this 
guy? And the fellow gave an answer, which if I ever write a 
book about this place, this will be the title, he said, he is 
at the highest level where they still know anything.
    You and I are now above that level. So I really think it is 
important that you be the ultimate judge of whether things are 
working.
    Dr. Hayden. I can assure you, Senator, at this point, that 
in my discussions with Mr. Barton, who is the new CIO and a 
permanent appointment--that had been part of the difficulty, 
that they had had several different chief information 
officers--that in our discussions, he was able to explain 
things to me from petabytes to the security needs to the 
storage and everything in a way that I could repeat it and 
actually knew what he was saying. And that gave me--and I have 
worked with IT professionals for a number of years on very 
difficult projects, and you are right, that is the test. If 
they can explain it and also make you understand and if I can 
get on the Web site or whatever function that is being 
presented and do well, that is a good sign.
    Senator King. Thank you. Thank you for your testimony. I 
would also mention that--and you touched on it--security is 
going to be more----
    Dr. Hayden. Important.
    Senator King [continuing]. More and more important going 
forward, and copyrights as well as the digitization of the 
collection.
    Dr. Hayden. Right.
    Chairman Blunt. Senator Boozman.
    Senator King. Thank you for your testimony.
    Senator Boozman. Thank you, Mr. Chairman. And Dr. Hayden, I 
appreciate your coming by the office not too long ago and 
having a good visit. You are a very distinguished, accomplished 
lady, and I also want to give a shout out to your mom, since 
she has strong Arkansas ties, I think through Helena----
    Dr. Hayden. Helena.
    Senator Boozman [continuing]. If I remember right. So that 
makes her very special. Like I say, you are special, but she is 
very special.
    We touched on a few of these things. You know, there has 
been a lot of talk about the copyright and the challenges 
there. But besides the copyright, what would be your biggest 
priorities? What do you see as the biggest challenges with the 
job as you come in?
    Dr. Hayden. With the--thank you, and especially for the 
shout out for Helena. I must say, my mom was very thrilled when 
I put the pin on the Arkansas state for her.
    Senator Boozman. No, I was thrilled too.
    Dr. Hayden. With Lexier and everything. One of the biggest 
challenges now that the technology infrastructure and securing 
that base for all operations, including the special operations, 
copyright--and the Congressional Research Service has special 
IT needs as well, will be to bring the leadership team and the 
wonderful staff members at the Library of Congress together 
with a shared vision and to work as a team together to advance. 
Sometimes, as you probably know, with larger organizations that 
have these specialized aspects, it is hard to get out of the 
silo effect.
    And so the challenge, but also, I think, the one that has 
one of the greatest rewards of any management--let's see, how 
do I put it--I said challenge, but a management opportunity is 
to get everyone rowing in the same direction. And I think that 
that, just meeting with the senior staff members, I am assured 
that they all have the same goal in mind----
    Senator Boozman. Sure.
    Dr. Hayden [continuing]. To make the Library of Congress 
and all of its functions and mandates the best.
    Senator Boozman. We do a lot of things in Congress, or 
there is a feeling, you know, that perhaps, you know, that we 
do things that you could argue whether or not we should be 
doing. The Library of Congress is special, and I would argue 
that I cannot do that as an individual. Their function--states 
cannot do it. It is a very special institution.
    And I always encourage people that are up here visiting to 
be sure and go to the Library of Congress. It is probably the 
most beautiful building inside of any that we have. And it 
really is a national treasure.
    And you have touched on this before, but I want to touch on 
it again because I think it is so, so very important. Not 
everybody gets to come up here, you know, and experience that. 
Tell me again about some of your plans, how to get the Library 
out to the hinterlands, particularly rural areas, places like 
Helena and this and that? How do we do that? How do we do a 
better job?
    Dr. Hayden. Thank you for that, because the rural areas 
sometimes are not given the attention that they deserve in 
bringing culture and bringing information beyond just the 
basics of making sure they have the broadband capacity to take 
advantage of the online resources.
    I mentioned earlier in a small town having access to 
Abraham Lincoln's papers, or popular play now, Hamilton, and 
the fact that the papers of Alexander Hamilton are available 
online. It would be important also to be able to have exhibits 
that travel, low-cost exhibits that could take advantage of 
reproductions that could be in church halls. They could be 
anywhere in a town.
    And coming from a background that my dad was born in a town 
of 10,000--I mentioned my grandfather, he was the postman 
there--it means so much to have access to special types of 
things. So not only would the exhibits possibly be able to be 
put into different places in a town, but possibly some of the 
artifacts themselves, primary sources if they could travel. It 
has been done with the Smithsonian and other institutions, and 
they could do it with the Library of Congress.
    Senator Boozman. Thank you, Mr. Chairman.
    Chairman Blunt. Thank you, Senator Boozman. I have a couple 
of other questions. Being the president of the American Library 
Association is, I am sure, a great honor, but maybe not an 
unmixed blessing, because suddenly you are responsible for 
everything that is being talked about as part of the 
association.
    There are a couple of areas of criticism that you and I 
have talked about and I would like to get your response to 
those on the record today. One was when the Congress passed the 
Children's Internet Protection Act, the American Library 
Association challenged the constitutionality of that, arguing 
that it violated the First Amendment. And I know, beginning 
then as a leader of the national organization through really up 
until now, you have commented on this several times, but you 
want to talk about that whole issue of what kind of violation 
that would have been, and then the issue of what kinds of 
things need to happen in a library to be sure that children do 
not have access to material that we would not want children to 
have access to, and then how often you have to revisit that 
whole concept?
    Dr. Hayden. I really appreciate that question, Senator, 
because there has been quite a bit of just misinterpretation of 
the Library Association's position during that time. That was 
in 2003-2004, and at that time, the filters that would have 
been required for libraries to install were found to prohibit 
access to very important health information, and the most 
notable at that time was breast cancer.
    And since that time, the technology has improved and the 
filters that are installed to receive federal funding--and my 
library, the Pratt Library, in its state role, has installed 
filters--have improved, and the need to be vigilant is also 
something that libraries are doing in not only the 
technological aspect, but just plain physical arrangements of 
computers, making sure that there are face-out positioning of 
computer monitors, as well as very few, if any, cubicles that 
contain computers as well, and education and making sure that 
people know that pornography is illegal and we do not support 
that in any shape or form.
    Chairman Blunt. You do not think that pornography, illegal, 
as you described it, has a place in the library?
    Dr. Hayden. Not online, no.
    Chairman Blunt. And there are, at the same time, things in 
the library that are not appropriate for everybody that visits 
the library to see.
    Dr. Hayden. Right, and Senator, the way you described it is 
exactly the way that libraries even design their buildings and 
the furniture, and making sure there is even signage that 
unaccompanied adults in children's sections are going to be 
questioned. There are so many safety measures that are put in 
public libraries, and even college and university libraries, to 
make sure that minors are safe and that they are not exposed to 
objectionable material as far as we can prevent.
    Chairman Blunt. And while your final degree was a Ph.D. 
from the University of Chicago, a very highly respected 
institution, a lot of your early work was as a children's 
librarian. A lot of your early focus was that, so these are 
issues that you have always cared about?
    Dr. Hayden. Yes, and it has been interesting to see how--
and I mentioned earlier with the ``C'' for caution with 
copyright, that if you pay attention in the front end, that it 
sometimes really helps in terms of later and working with young 
people and seeing what imagination can be sparked. 3-D printers 
now are in libraries, and that is a perfect time to let young 
people know that all of this information that you can now get 
on your device is not free for you to use and just put your 
name on it. So I have been very involved in youth issues for 
quite a while.
    Chairman Blunt. I thought just the example you gave of how 
you early on expressed to somebody the importance of their own 
creative work was an indication of the way you would approach a 
number of these issues.
    On another thing from the American Library Association, 
when the Patriot Act was passed, librarians objected to a 
particular part of that, and in fact, the law was changed, I 
think, from what was called the Librarian's Provision. Do you 
want to talk about that a little bit?
    Dr. Hayden. Yes. That was quite a time. That was also in 
2003-2004. And the entire nation was concerned about security 
and it was a time of great apprehension, and people were going 
into libraries to find information about all of the different 
aspects of what was going on. And the library community was 
just very concerned that in the quest for security and making 
sure that we were all safe that the public's rights were also 
considered as well.
    And since that time, there have been a number of reforms to 
the Patriot Act, with the approval of Congress, which have 
helped to alleviate the library community's concerns. And I 
think I can also say that the American Library Association is 
very pleased at the progress that has been made to balance 
security and personal rights.
    Chairman Blunt. And so would an example of that, Dr. 
Hayden, would an example of that under the original discussion 
be that there was some thought that law enforcement might be 
able to come in and just say, we would like to look through 
your records and see who has been looking at certain books, 
looking up certain things, or even we would like to look at a 
certain person's library record without a court saying that 
that was necessary. Was that the concern?
    Dr. Hayden. That was the basis of it, and especially the 
bulk collection of information about who was interested in a 
subject. What we were concerned about, and especially that 
time, 2003-2004, that interest in a subject would be, or could 
be misinterpreted as intent to do something. So interest and 
intent were not equal, we were saying.
    Chairman Blunt. I think that is a position I believe the 
country has generally come to, and I think your explanation of 
2002 and 2003 was also a good one, that everybody is trying to 
figure out what can we do to stop this from happening again, 
and sometimes that requires a lengthy discussion as to the 
right way to do that.
    Any follow-up questions, Senator Cochran? Senator Boozman? 
Well, we will have the record open until the time I announced 
earlier, for additional questions.
    Anything you want to add, Dr. Hayden, which you wish had 
been asked that wasn't, any topic you want to cover?
    Dr. Hayden. Well, I had a few. I just wanted to thank 
everyone for their support and for your consideration, Mr. 
Chairman, and I really appreciate this opportunity. And to be 
nominated as a librarian, if you're a career librarian, I must 
tell you, this is one of the highest honors, and I thank you 
for this opportunity.
    Chairman Blunt. Thank you. This hearing is adjourned.
    [Whereupon, at 3:27 p.m., the Committee was adjourned.]

                       SUBMISSIONS FOR THE RECORD
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
